<html>
<title> - PROVIDING THE TOOLS FOR SCIENTIFIC DISCOVERY AND BASIC ENERGY RESEARCH: THE DEPARTMENT OF ENERGY SCIENCE MISSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






PROVIDING THE TOOLS FOR SCIENTIFIC DISCOVERY AND BASIC ENERGY RESEARCH:
                THE DEPARTMENT OF ENERGY SCIENCE MISSION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2013

                               __________

                           Serial No. 113-52

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov


                                  _______

                   U.S. GOVERNMENT PRINTING OFFICE

85-278 PDF                WASHINGTON : 2013
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001











              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas                 ERIC SWALWELL, California
FRANK D. LUCAS, Oklahoma             ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              JOSEPH KENNEDY III, Massachusetts
MICHAEL T. McCAUL, Texas             MARC VEASEY, Texas
RANDY HULTGREN, Illinois             MARK TAKANO, California
THOMAS MASSIE, Kentucky              ZOE LOFGREN, California
KEVIN CRAMER, North Dakota           DANIEL LIPINSKI, Illinois
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas





















                            C O N T E N T S

                            October 30, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    10

Statement by Representative Eric Swalwell, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    12

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    15
    Written Statement............................................    16

                               Witnesses:

Dr. Pat Dehmer, Deputy Director for Science Programs, Office of 
  Science, Department of Energy
    Oral Statement...............................................    17
    Written Statement............................................    20

Dr. Horst Simon, Deputy Director, Lawrence Berkeley National Lab
    Oral Statement...............................................    30
    Written Statement............................................    32

    Dr. John Hemminger, Chairman, Basic Energy Sciences Advisory 
      Committee, Department of Energy............................
    Oral Statement...............................................    47
    Written Statement............................................    49

Discussion.......................................................    62

             Appendix I: Answers to Post-Hearing Questions

Dr. Pat Dehmer, Deputy Director for Science Programs, Office of 
  Science, Department of Energy..................................    78

Dr. Horst Simon, Deputy Director, Lawrence Berkeley National Lab.    98

Dr. John Hemminger, Chairman, Basic Energy Sciences Advisory 
  Committee, Department of Energy................................   101

            Appendix II: Additional Material for the Record

Supporting material submitted for the record by Dr. Horst Simon, 
  Deputy Director, Lawrence Berkeley National Lab................   154

 
              PROVIDING THE TOOLS FOR SCIENTIFIC DISCOVERY
                       AND BASIC ENERGY RESEARCH:
                THE DEPARTMENT OF ENERGY SCIENCE MISSION

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2013

                  House of Representatives,
                                     Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:34 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairwoman Lummis. Good morning. We are all scampering in 
to gather for this hearing that we are delighted to be holding, 
and we want to welcome everyone to the hearing. It is titled 
``Providing the Tools for Scientific Discovery and Basic Energy 
Research: The Department of Energy's Science Mission.'' In 
front of you are packets containing the written testimony, 
biographies and Truth in Testimony disclosures for today's 
witness panel.
    Again, we are delighted that you are here, and I am going 
to now recognize myself for five minutes for an opening 
statement.
    The Department of Energy is the lead Federal agency 
supporting fundamental scientific research for energy and the 
largest supporter of basic research in the physical sciences. 
It funds basic research at universities, owns world-class 
national laboratories, and makes available unique scientific 
user facilities to conduct groundbreaking research. These 
fundamental science and basic research activities provide the 
underpinnings of America's long-term economic competitiveness 
and result in scientific discoveries which change the way we 
look at the natural world. This scientific research has led to 
113 Nobel Prize winners affiliated with the DOE or its 
predecessor agencies. We must continue to pursue this standard 
of international excellence. A vibrant scientific ecosystem 
fosters innovation and discovery. The Department should 
continue to work with its academic national lab and industry 
stakeholders to achieve this goal. This includes providing the 
tools to the national laboratories to reduce bureaucratic 
paperwork and regulations, as we heard in an Energy 
Subcommittee hearing in July. These efforts will enable 
taxpayers' funding to be used more efficiently.
    Given the current budgetary outlook of skyrocket 
entitlement spending crowding out discretionary funding, it is 
imperative to maximize the value of limited tax dollars. DOE 
must prioritize its activities and assure each dollar is 
allocated effectively. I look forward to hearing from today's 
witnesses on how this can best be achieved.
    [The prepared statement of Mrs. Lummis follows:]

       Prepared Statement of Subcommittee Chairman Cynthia Lummis

    Good morning and welcome to today's hearing titled Providing the 
Tools for Scientific Discovery and Basic Energy Research: The 
Department of Energy Science Mission.
    The Department of Energy (DOE) is the lead federal agency 
supporting fundamental scientific research for energy and the largest 
supporter of basic research in the physical sciences. It funds basic 
research at universities, owns world-class National Laboratories, and 
makes available unique National Scientific User Facilities to conduct 
groundbreaking research.
    These fundamental science and basic research activities provide the 
underpinnings of America's long-term economic competitiveness and 
result in scientific discoveries which change the way we look at the 
natural world. This scientific research has led to 113 Nobel Prize 
winners affiliated with DOE or its predecessor agencies. We must 
continue to pursue this standard of international excellence
    A vibrant scientific ecosystem fosters innovation and discovery. 
The Department should continue to work with its academic, National Lab 
and industry stakeholders to achieve this goal. This includes providing 
the tools to the National Laboratories to reduce bureaucratic paperwork 
and regulation, as we heard in an Energy Subcommittee hearing in July. 
These efforts will enable taxpayer funding to be used more efficiently.
    Given the current budgetary outlook of skyrocketing entitlement 
spending crowding out discretionary funding, it is imperative to 
maximize the value of limited tax dollars. DOE must prioritize its 
activities and assure each dollar is allocated effectively. I look 
forward to hearing from today's witnesses on how this can best be 
achieved.

    Chairwoman Lummis. Mr. Chairman, I will yield to you later, 
and I am delighted to recognize the Ranking Member, Mr. 
Swalwell, for his opening statement.
    Mr. Swalwell. Thank you, Chairman Lummis. Thank you for 
holding this hearing. I look forward to hearing from our 
distinguished panel of witnesses.
    The Department of Energy's Office of Science is the 
Nation's largest supporter of research in the physical 
sciences, so it is impossible to overstate its important role 
that it will play in establishing our energy future and to our 
innovation enterprise. Our witnesses today will be able to 
speak in much greater detail about the Office, but I want to 
start by highlighting just a few of the amazing activities that 
this program supports.
    The Basic Energy Sciences program builds and operates a 
number of major user facilities, including several massive 
light sources and neutron sources that allow us to examine new 
materials and to watch fundamental chemical and biological 
processes almost in real time. About 14,000 researchers across 
the country use these facilities each year. These users include 
not only Department of Energy scientists, but university 
scientists as well as their students, as well as researchers 
from approximately 160 companies including names like Boeing, 
Dow, Ford, General Electric, IBM, Merck, and Pfizer. I would be 
remiss if I didn't also mention that this program supports the 
Combustion Research Facility at Sandia National Laboratory, 
which has been working closely with U.S. engine manufacturers 
for more than 30 years to improve efficiency and reduce harmful 
emissions from internal combustion engines.
    As we touched on in a hearing earlier this year, the 
Office's Advanced Computing Research program is supporting 
facilities and developing software tools that address our 
scientific community's major supercomputing needs today, and it 
is providing the scaffolding necessary to build the next 
generation of high-end computing systems for tomorrow. This 
capacity will enable researchers across the scientific arena, 
from materials science to climate change to astrophysics, to 
acquire unparalleled accuracy in their simulations and achieve 
research breakthroughs more rapidly than ever before.
    This is why I am pleased to be an original cosponsor of the 
bipartisan American Super Computing Leadership Act recently 
introduced by my colleague on the Science Committee, Mr. 
Hultgren, and I am encouraged to see its language incorporated 
in various versions of a reauthorization of the Office of 
Science.
    The Fusion Energy Sciences program supports research into 
plasma physics and the underlying engineering challenges of 
fusion energy systems. If successful, these efforts would 
provide us with a practically inexhaustible source of energy 
with almost zero environmental impact. And the Nuclear and High 
Energy Physics programs allow us to make discoveries from the 
atomic all of the way up to the cosmic level, engaging human 
beings' innate curiosity about the origin and makeup of our 
universe and our place in it. I could spend my entire opening 
statement talking about the great research supported by the 
Office of Science, but I will spare all of you that.
    It is important to note that many of these programs and 
activities would not be possible without the world-class system 
of national laboratories supported by the Office. These labs 
are rightfully described as the backbone, or crown jewels, of 
our country's research and development infrastructure. They 
house facilities and provide capabilities that are impossible 
for academic or industrial research institutions to support on 
their own, and we know that they won't. They employ some of the 
world's brightest scientists and engineers, and they help train 
our country's next generation of researchers. I may be a bit 
partial toward the labs because I happen to have two in my 
district, Sandia and Lawrence Livermore, and just about a 
three-iron away is the Lawrence Berkeley Laboratory, where Dr. 
Simon comes from, and we will talk about shortly, but without a 
doubt, the research and technologies that come out of these 
labs have produced an immense return on investment for American 
taxpayers.
    Unfortunately, the funding levels in the draft legislation 
that the majority is asking us to consider are simply 
inadequate to allow the Office of Science to continue to 
support the great research and facilities that it does. At a 
first glance, one might believe that the majority's bill 
actually increases funding for the Office, but a closer look 
reveals that it is actually a cut to the funding because the 
rate of inflation for research is approximately three percent 
annually, but the bill only provides year-to-year increases of 
1 to 1.7 percent. In effect, it is a cut to the Office's 
budget. I hope that we can work around this, increase the 
budget and give the Office of Science the research and funding 
that it deserves.
    We hear a lot of talk about America being the greatest 
country in the world. I certainly believe that, and it 
certainly is, but if want to maintain our leadership and 
standing in technology and innovation and the jobs that will 
come with it, we can't afford to continue to cut our research 
budgets, cede leadership on important areas like fusion to 
China and Russia without any consideration of the impacts such 
cuts will have on our Nation's competitiveness.
    I look forward to discussing these and other issues with 
this distinguished panel here, and Madam Chairman, I yield back 
the balance of my time.
    [The prepared statement of Mr. Swalwell follows:]

    Prepared Statement of Subcommittee Ranking Member Eric Swalwell
    Thank you Chairman Lummis for holding this hearing, and I also want 
to thank this excellent panel of witnesses for their testimony and for 
being here today.
    The Department of Energy's Office of Science is the nation's 
largest supporter of research in the physical sciences, so it is 
impossible to overstate its importance to our energy future and to our 
innovation enterprise. Our witnesses will be able to speak in much 
greater detail about the Office, but I want to start by highlighting 
just a few of the amazing activities and programs that it supports.
    The Basic Energy Sciences program builds and operates a number of 
major user facilities, including several massive light sources and 
neutron sources that allow us to examine new materials and to watch 
fundamental chemical and biological processes in almost real-time. 
About 14,000 researchers use these facilities each year. These users 
include not only DOE scientists, but university scientists and their 
students, as well as researchers from roughly 160 private companies 
including names like Boeing, Dow, Ford, General Electric, IBM, Merck, 
and Pfizer. I'd be remiss if I didn't also mention that this program 
supports the Combustion Research Facility at Sandia National 
Laboratories, which has been working closely with U.S. engine 
manufacturers for more than 30 years to improve efficiency and reduce 
harmful emissions from internal combustion engines.
    As we touched on in a hearing earlier this year, the Office's 
advanced computing research program is supporting facilities and 
developing software tools that address our scientific community's major 
supercomputing needs today, and it is providing the scaffolding 
necessary to build the next generation of high-end computing systems 
tomorrow. This capacity will enable researchers across the scientific 
arena, from materials science to climate change to astrophysics, to 
acquire unparalleled accuracy in their simulations and achieve research 
breakthroughs more rapidly than ever before. This is why I am pleased 
to be an original co-sponsor of the bipartisan American Super Computing 
Leadership Act recently introduced by Mr. Hultgren, and I am encouraged 
to see its language incorporated in various versions of a 
reauthorization of the Office of Science.
    The Fusion Energy Sciences program supports research into plasma 
physics and the underlying engineering challenges of fusion energy 
systems. If successful, these efforts would provide us with a 
practically inexhaustible source of energy with almost zero 
environmental impact. And the Nuclear and High Energy Physics programs 
allow us to make discoveries from the atomic all of the way up to the 
cosmic level, engaging human beings' innate curiosity about the origin 
and makeup of the universe and our place in it. I could spend my entire 
opening statement talking about all of the great research supported by 
the Office of Science, but I will spare you all.
    It's important to note that many of these programs and activities 
would not be possible without the world-class system of national labs 
supported by the Office of Science and other offices at DOE. These labs 
are rightfully described as the backbone, or the ``crown jewels,'' of 
our country's R&D infrastructure. They house facilities and provide 
capabilities that are impossible for academic or industrial research 
institutions to support on their own. They employ some of the world's 
brightest scientists and engineers. And they help train our country's 
next generation of researchers. I may be a bit partial toward the labs 
because I happen to have one or two in my district (and a few more 
nearby, as Dr. Simon may rightfully point out) but, without a doubt, 
the research and technologies that come out of these labs have produced 
an immense return on investment to American taxpayers.
    Unfortunately, the funding levels in the draft legislation that the 
Majority is asking us to consider are simply inadequate to allow the 
Office of Science to continue to support the great research and 
facilities that it does. At first glance, one might think that the 
Majority's bill actually increases funding for the Office, but a closer 
look reveals that they are actually cutting funding--the rate of 
inflation for research is about three percent, but the bill only 
provides year-to-year increases of 1 to 1.7 percent, in effect cutting 
the Office's budget. This is simply unacceptable and seems to be a 
pattern on this Committee. We hear a lot of talk about America being 
the greatest country in the world, and it certainly is, but if want to 
maintain our leadership in technology and innovation--and the jobs that 
come with it--we can't afford to continue to cut our research budgets 
without any consideration of the impacts such cuts will have on our 
nation's competitiveness.
    I look forward to discussing these and other issues with this 
distinguished panel here today, and with that I yield back the balance 
of my time.

    Chairwoman Lummis. I thank the Ranking Member and now 
recognize the Chairman of the full Committee on Science, Space, 
and Technology, the gentleman from Texas, Mr. Smith.
    Chairman Smith. Thank you, Madam Chair, and I also want to 
thank you for your statement and the Ranking Member for his 
statement, which I thought was largely positive, and I 
appreciate that. We may have a slight difference on funding but 
I think overall we all are very encouraged by what the Office 
of Science at the DOE does.
    The Department of Energy at its core is a science agency. 
Its science mission is carried out through its basic research 
activities executed by the Office of Science. This research 
provides the foundation for innovation that drives long-term 
economic growth and serves as a valuable investment in 
America's future.
    The impact of DOE basic research activities is evident in 
our daily lives. Thousands of lives have been saved by DOE-
sponsored research that developed MRIs and noninvasive cancer 
detection methods. Technological revolutions such as smaller, 
faster computer processors and breakthrough discoveries in 
energy storage can be traced to DOE basic research programs.
    Today's hearing will focus on draft legislation titled 
``Enabling Innovation for Science, Technology, and Energy in 
America Act,'' or EINSTEIN America Act. Yes, we like acronyms. 
The EINSTEIN America Act supports high-impact research that 
promotes economic innovation and revolutionary scientific 
research such as the development of X-ray light sources and 
high-performance computing programs. It recognizes the role of 
discovery science programs which explore the most fundamental 
questions about the nature of the universe.
    The discussion draft requires the Department of Energy to 
coordinate with other Federal agencies to streamline workplace 
regulations. This reduces burdensome red tape and provides the 
national labs flexibility to more effectively and efficiently 
execute the Department's mission. This ensures that American 
taxpayer dollars are better utilized and enables labs to do 
more with less. The EINSTEIN America Act prioritizes science 
activities within the Department. It provides for an almost two 
percent increase above current spending levels.
    The discussion draft and today's hearing serve as a 
starting point in the legislative process. I look forward to 
the witnesses' testimony and to working with Committee Members 
to advance this bill.
    Thank you, Madam Chairman, and yield back the balance of my 
time.
    [The prepared statement of Mr. Smith follows:]

    Prepared Statement of Committee on Science, Space and Technology
                        Chairman Lamar S. Smith

    The Department of Energy (DOE) at its core is a science agency. Its 
science mission is carried out through its basic research activities 
executed by the Office of Science. This research provides the 
foundation for innovation that drives long-term economic growth and 
serves as a valuable investment in America's future.
    The impact of DOE basic research activities is evident in our daily 
lives. Thousands of lives have been saved by DOE-sponsored research 
that developed MRIs and non-invasive cancer detection methods.
    Technological revolutions, such as smaller, faster computer 
processors and breakthrough discoveries in energy storage, can be 
traced to DOE basic research programs.
    Today's hearing will focus on draft legislation titled ``Enabling 
Innovation for Science, Technology, and Energy in America Act'' or 
EINSTEIN America Act.
    The EINSTEIN America Act supports high-impact research that 
promotes economic innovation and revolutionary scientific research, 
such as the development of x-ray light sources and high performance 
computing programs.
    It recognizes the role of discovery science programs, which explore 
the most fundamental questions about the nature of the universe.
    The discussion draft requires the Department of Energy to 
coordinate with other Federal Agencies to streamline workplace 
regulations. This reduces burdensome red tape and provides the National 
Labs flexibility to more effectively and efficiently execute the 
Department's mission.
    This ensures that American taxpayer dollars are better utilized and 
enables Labs to do more with less.
    The EINSTEIN America Act prioritizes science activities within the 
Department. It provides for an almost two percent increase above 
current spending levels and a one percent increase above the House-
passed appropriations level for Fiscal Year 2014.
    The discussion draft and today's hearing serve as a starting point 
in the legislative process. I look forward to the witnesses' testimony 
and to working with Committee Members to improve and advance this draft 
bill.
    Thank you and I yield back the remainder of my time.

    Chairwoman Lummis. Thank you, Mr. Chairman, and now the 
Chair recognizes the Ranking Member of the full Committee, the 
gentlelady from Texas, Mrs. Johnson.
    Ms. Johnson. Thank you very much. Thank you, Madam Chair, 
for holding this hearing today, and I would like to thank the 
witnesses as well for being here.
    The Department of Energy's Office of Science is actually 
the largest supporter of basic research in the physical 
sciences in the country, and it operates more than 30 national 
scientific user facilities whose applications go well beyond 
energy innovation. Our Nation's top researchers from industry, 
academia and other Federal agencies use these facilities to 
examine everything from new materials that will better meet our 
military's needs, to new pharmaceuticals that will better treat 
disease, or even to examine the fundamental building blocks of 
the universe. I believe that this stewardship of unique 
scientific research, including the Nation's major national user 
facilities, is an important role that I hope the Department 
will continue to make one of its highest priorities.
    I appreciate the majority's efforts today to shine a 
spotlight on the good work carried out by the Office of Science 
and to authorize many of its important programs. However, I do 
have some significant concerns about the funding levels in the 
majority's discussion draft, which essentially amount to 
harmful cuts because they do not even keep up with the rate of 
inflation for research. These levels for Fiscal Year 2014 are 
actually less than the Senate Appropriations Mark and the 
Administration's request levels by almost nine percent. I am 
also concerned with the language that is clearly aimed at 
shifting support away from critical activities that the Office 
carries out to examine the science and impacts of climate 
change.
    That said, I believe there is common ground in our support 
for many of the Office's programs. Yesterday I was pleased to 
circulate a discussion draft of the America COMPETES 
Reauthorization Act of 2013, produced by my staff, which 
includes several similar provisions to the majority's draft. It 
also includes authorization for the Advanced Research Projects 
Agency for Energy and a number of important legislative changes 
that would accelerate technology transfer and improve the 
management of our national laboratories.
    With these two drafts in mind, I look forward to working 
with the majority and the science and technology community to 
seek out that common ground and to see if the concerns that I 
have raised can be reconciled.
    I thank you, Madam Chair, and I yield back the balance of 
my time.
    [The prepared statement of Ms. Johnson follows:]

    Prepared Statement of Committee on Science, Space and Technology
                  Ranking Member Eddie Bernice Johnson

    Thank you Chairman Lummis for holding this hearing today, and I 
would also like to thank the witnesses for being here.
    The Department of Energy's Office of Science is actually the 
largest supporter of basic research in the physical sciences in the 
country, and it operates more than 30 national scientific user 
facilities whose applications go well beyond energy innovation. Our 
nation's top researchers from industry, academia, and other federal 
agencies use these facilities to examine everything from new materials 
that will better meet our military's needs, to new pharmaceuticals that 
will better treat disease, to even examining the fundamental building 
blocks of the universe. I believe that this stewardship of unique 
scientific research, including the nation's major national user 
facilities, is an important role that I hope the Department will 
continue to make one of its highest priorities.
    I appreciate the Majority's efforts today to shine a spotlight on 
the good work carried out by the Office of Science, and to authorize 
many of its important programs. However, I have significant concerns 
about the funding levels in the Majority's discussion draft, which 
essentially amount to harmful cuts because they do not even keep up 
with the rate of inflation for research. These levels for fiscal year 
2014 are actually less than the Senate Appropriations Mark and the 
Administration's request levels by almost 9%. I am also concerned with 
language that is clearly aimed at shifting support away from critical 
activities that the Office carries out to examine the science and 
impacts of climate change.
    That said, I believe there is common ground in our support for many 
of the Office's programs. Yesterday I was pleased to circulate a 
discussion draft of the America Competes Reauthorization Act of 2013, 
produced by my staff, which includes several similar provisions to the 
Majority's draft. It also includes authorization for the Advanced 
Research Projects Agency for Energy and a number of important 
legislative changes that would accelerate technology transfer and 
improve the management of our national laboratories.
    With these two drafts in mind, I look forward to working with the 
Majority and the science and technology community to seek out that 
common ground, and to see if the concerns that I've raised can be 
reconciled.

    Chairwoman Lummis. I thank the gentlelady.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses. Our 
first witness today is Dr. Patricia Dehmer, Deputy for Science 
Programs at the Office of Science, Department of Energy. 
Previously, she served as the Deputy Director for Science 
Programs at DOE. From 1995 to 2007, she served as the Director 
of the Office of Basic Energy Sciences at DOE. She also started 
her career at DOE as a postdoctoral fellow at Argonne National 
Laboratory in 1972. Welcome, Dr. Dehmer.
    I would also now like to yield to the gentleman from 
California, the Ranking Member of the Subcommittee, Mr. 
Swalwell, to introduce our second witness.
    Mr. Swalwell. Thank you, Chairman Lummis.
    Today I am very pleased to introduce Dr. Horst Simon, 
Deputy Director at Lawrence Berkeley National Laboratory. Dr. 
Simon joined the laboratory in early 1996 as the Director of 
the National Energy Research Science Computing Center, and 
under his leadership, the Center enabled important discoveries 
for research in fields ranging from global climate modeling to 
astrophysics. Dr. Simon is an internationally recognized expert 
in computer science and applied mathematics, and he received 
the Gordon Bell Prize for Parallel Processing Research twice, 
first in 1988 and again in 2009. He was also a member of the 
team that developed NASA's Advanced Supercomputing Parallel 
Benchmarks, a widely used standard for evaluating the 
performance of massively parallel computing systems. Dr. Simon 
holds an undergraduate degree in mathematics and a Ph.D. in 
mathematics from the University of California at Berkeley, 
clearly a great university, given how close it is to the 15th 
Congressional District.
    I also should personally note that during my last visit to 
Lawrence Berkeley Laboratory, as I was nearing the end of the 
tour and had to go to another meeting, Dr. Simon had the 
unfortunate distinction of drawing the shortest straw, and his 
presentation was at the very end, and he was following me all 
the way out to the parking lot. He was so excited about the 
research and what he was working on. I am happy to continue 
listening to you, Dr. Simon, by inviting you here to testify 
today in Congress, and I really appreciate the work you do for 
the Bay Area and the international science community.
    Thank you, and I yield back.
    Chairwoman Lummis. I thank the gentleman. It appears your 
enthusiasm is infectious, and you have infected the Ranking 
Member of this Committee with your enthusiasm, and we 
appreciate that very much, Dr. Simon.
    Our third and final witness today is Dr. John Hemminger, 
Chairman of the Basic Energy Science Advisory Committee for the 
Department of Energy. Dr. Hemminger is the Vice Chancellor for 
Research and a Professor of Chemistry at the University of 
California Irvine.
    Now, as our witnesses should know, spoken testimony is 
limited to five minutes each after which the Members of the 
Committee will have five minutes each to ask questions.
    Okay. We are ready to begin. I now recognize Dr. Dehmer for 
five minutes to present her testimony. Welcome, Dr. Dehmer.

                  TESTIMONY OF DR. PAT DEHMER,

             DEPUTY DIRECTOR FOR SCIENCE PROGRAMS,

            OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Dr. Dehmer. Thank you so much, Chairman Lummis, Ranking 
Member Swalwell and Members of the full Committee and the 
Subcommittee. I am pleased to be here today to represent DOE's 
Office of Science, often called the best-kept secret in town.
    For more than six decades, the Office of Science and its 
predecessors have been a U.S.and world leader in scientific 
discovery and innovation. We have led the world in high-
performance computing. We helped drive the transition from 
using only those materials that are found in nature to the 
directed design of new materials at the atomic level. We have 
played an important role in initiating the modern biotechnology 
revolution through the creation of the Human Genome Project. We 
have pushed the frontiers of understanding the origins of 
matter and the universe, and we have built and operated dozens 
of large-scale scientific user facilities, which are major 
pillars of the U.S. scientific enterprise. Today they serve 
29,000 users annually. From the earliest accelerators in the 
1930s to today's supercomputers and the Linac Coherent Light 
Source, the world's first hard X-ray laser, these facilities 
have redefined what is possible over and over again.
    As the Federal agency funding the largest fraction of basic 
research in the physical sciences, we need to continue to 
provide the scientific research community with the tools and 
opportunities for the future. Here are half a dozen or so areas 
of priority for us. The first is high-performance computing. No 
other nation has been as successful in scientific computing as 
the United States. The United States has more supercomputers on 
the list of top 500 machines than any other nation and it has 
held this advantage since the list was first compiled in 1993, 
but our lead is precarious. To retain this lead, we are 
planning the next phase in high-performance computing, 
sometimes known as exascale computing, or the Exascale 
Initiative. This is not simply a machine capable of ten to the 
eighteenth operations per second. Rather, it is a journey to a 
new level of predictive design using computation. This will 
require advances in applied math, computer science, 
manipulation of big data, and the development of community 
codes so that we are ready on day one and that we are ready to 
be the first to benefit from these new machines.
    The second area is predictive design of materials. The 
energy systems of the future, whether they tap sunlight, store 
electricity or make fuel by splitting water, will involve 
materials that convert energy from one form to another. New 
materials will require exquisite control and functionality and 
they must be synthesized with precisely defined atomic 
arrangements. Of critical importance in doing this are our 
major scientific user facilities that probe materials at the 
atomic level, and these are the big light sources, the neutral 
scattering facilities and the electron beam scattering 
facilities.
    As a partner to predictive design of materials is 
predictive design of biological systems. Understanding how 
genomic information is translated into functional capabilities 
will enable design of microbes and plants for sustainable 
biofuels production, improved carbon storage and biological 
transformation of materials such as nutrients and contaminants 
in the environment.
    Next in line is scientific discovery and technology 
innovation through new funding constructs, often employing what 
we call team science. Examples are the Bioenergy Research 
Centers, now in their second five-year term, the Energy 
Frontier Research Centers and the Energy Innovation Hubs.
    Next is earth systems modeling. As a major supporter of the 
leading U.S. climate model, the Community Earth Systems Model, 
we recognize that today's models must be significantly improved 
to modernize the code, make the code compatible with our 
advanced high-performance computers, incorporate realistic 
biogeochemical systems--that is atmosphere, land, ocean, sea 
ice and subsurface--improve resolution and improve uncertainty 
quantification.
    Next is the fundamental nature of matter of energy. This is 
high-energy physics and nuclear physics. Understanding how the 
universe works by studying the properties and constituents of 
matter and energy, largely through the use of advanced 
accelerators and detectors, has been the responsibility of the 
Office of Science since the 1930s. Our scientific reach has now 
expanded through incorporation of underground science and 
cosmic science. In addition, we have taken on two new roles: 
stewardship of accelerator R&D for the Nation, and the Isotope 
Production program.
    Finally, the last important priority for us is harnessing 
plasmas, the fourth state of matter. Controlling matter at very 
high temperatures and densities builds the scientific 
foundation needed to develop a fusion energy source.
    Thank you, Chairman and Members. I would be pleased to 
answer your questions.
    [The prepared statement of Dr. Dehmer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairwoman Lummis. Thank you, Dr. Dehmer. My daughter, she 
is in her 20s. She is obsessed with lists, and I can't wait to 
call her and tell her there is a list of the top 500 machines, 
and she will undoubtedly be checking it out before the end of 
the day. Thanks for your testimony.
    I now recognize Dr. Simon to present his testimony.

         TESTIMONY OF DR. HORST SIMON, DEPUTY DIRECTOR,

                 LAWRENCE BERKELEY NATIONAL LAB

    Dr. Simon. Chairwoman Lummis, Ranking Member Swalwell and 
distinguished Members of the Subcommittee, thank you for 
holding this important hearing and for inviting me to 
participate. I would like to deviate from my script very 
slightly and mention that I am a coauthor of the Top500 list, 
so if there are specific questions on ranking supercomputers, I 
would be very happy to answer these questions.
    As I was introduced, my name is Horst Simon. I am the 
Deputy Director of Lawrence Berkeley National Laboratory, a 
multi-program Department of Energy Office of Science laboratory 
managed by the University of California. Berkeley Lab has a 
very long and distinguished history of producing world-leading 
science, and today continues to be an international leader in 
many scientific fields and technology areas from the mysteries 
of the universe to delivering new energy solutions.
    Considering the challenges that our Nation is facing, there 
are few issues that are as critical to the Nation's well-being 
as the vitality and productiveness of our innovation ecosystem. 
We do have a national ecosystem and it is comprised of 
universities, the national labs and, of course, industry, and 
it is the interplay of these three components that make us so 
competitive and make us very unique. In my daily work, I 
encounter almost every week visitors from around the world from 
Asia, from Europe, who come and visit the national labs and 
want to find out how does a national lab work, how do we 
interact with industry, how do we interact with universities 
because that system is very difficult to build and difficult to 
replicate. All three pieces of the system--universities, 
industry and national labs--are equally important and need to 
be supported.
    In my comments I would like to focus on what the national 
labs do. There are three important contributions that the 
national labs make. One, as has been mentioned by my colleague, 
Dr. Dehmer, we operate large-scale scientific facilities. These 
are facilities that are unique, very large, very difficult to 
build, difficult to maintain and operate, and that require 
consistent support over many years. These facilities are 
unique, not just in the Nation but worldwide. They provide a 
tool for our scientists to engage in really innovative new 
basic science and advance our state of knowledge.
    The second element is large-scale, multidisciplinary team 
science. Many of the challenges that we are facing today 
require the approaches that combine the input from very 
different disciplines. One example, which was mentioned, are 
the Bio Energy Research Centers. For example, the JBEI Research 
Center in Berkeley involves scientists that have backgrounds in 
agriculture, that have backgrounds in chemical engineering, 
that have backgrounds in biology. They work on a very 
challenging problem that will take many years to resolve, that 
is, getting from cellulosic matter to biofuels. Bringing all of 
them together and solving of these large, challenging projects 
is a characteristic of the national labs.
    Third, I would like to point out that the national labs 
have a very important element of education to do. We are 
supporting, for example, in Berkeley close to 900 postdocs and 
graduate students. These are individuals who come through the 
national lab on an ongoing basis. We actually have each year on 
the order of several hundred students that spend some time at 
the lab. The labs have an important element for training and 
educating these students because they learn what the real 
problems are that the Nation is facing and how the tools of 
science can be brought to bear on solving these problems. Even 
if they don't stay in the national lab system, they move on and 
become either academicians or work in industry and contribute 
to our innovative national ecosystem. So all three elements are 
equally important.
    I would like to conclude my testimony with a very personal 
comment. I came to the United States in the 1970s as a graduate 
student from Germany, and I received my Ph.D. in 1982 in 
Berkeley. I had not planned to really stay here but being a 
graduate student in one of the top universities, I found out 
very quickly that for a scientific career, the United States is 
the best place to be. I had spent some time in universities and 
industry and then came back to the national labs in 1995 and 
had a very, very productive career. I became a citizen a long 
time ago and very much enjoyed the support that you are 
providing to scientists like me that advanced my career and I 
have hopefully contributed significantly to the American 
innovation ecosystem.
    The unfortunate statement that I have to make at the end of 
my testimony is that if I were to meet myself today, a graduate 
student getting a Ph.D. in 2013, I am not sure if I could tell 
him or her the same thing that was true 30 years ago. It is not 
clear to me that this country has all the tools in place to 
provide an environment to be a productive environment for 
scientific inquiry. Thank you.
    [The prepared statement of Dr. Simon follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairwoman Lummis. Dr. Simon, thank you for your statement.
    I now recognize Dr. Hemminger to present his testimony.

           TESTIMONY OF DR. JOHN HEMMINGER, CHAIRMAN,

           BASIC ENERGY SCIENCES ADVISORY COMMITTEE,

                      DEPARTMENT OF ENERGY

    Dr. Hemminger. Thank you, Chair Lummis, Ranking Member 
Swalwell and Members of the Energy Subcommittee. My name is 
John Hemminger. I am Professor of Chemistry and Vice Chancellor 
for Research at the University of California at Irvine. I also 
serve as Chair of BESAC, the Basic Energy Sciences Advisory 
Committee, of the Office of Science. I appreciate the 
opportunity to appear before you today to provide my insight 
into the Office of Science and the Office of Basic Energy 
Sciences of DOE and to provide information on the activities of 
the Basic Energy Sciences Advisory Committee.
    In 2005, the U.S. National Academy sounded an alarm about 
the erosion of our global scientific and technological 
leadership with the publication of the report ``Rising Above 
the Gathering Storm.'' I think it is fair to say that a 
majority of somewhat complacent U.S. public and science 
infrastructure was stunned by this report. The response was 
swift and aggressive as this committee and the Congress passed 
the America COMPETES Act of 2007, which was then reauthorized 
in 2010. Last month, the chancellors and presidents of over 200 
U.S. universities sent an open letter to Congress and the 
President expressing their serious concerns about what they 
referred to as the increasing U.S. innovation deficit. Their 
call to action was echoed in a similar letter from over a dozen 
associations representing the U.S. high-technology business 
community.
    The origin of the U.S. innovation deficit is clear. It is a 
direct result of our success. Since World War II, the U.S. 
Federal Government has invested heavily in all areas of 
fundamental science and technology. The result is the 
technologically sophisticated society we have today. Our 
success has not been lost on our global competition, especially 
countries in Asia and the European Union are investing heavily 
in fundamental science and technology. We have taught them by 
example. The growing innovation deficit is nowhere more 
critical than in energy science and technology where the United 
States is being challenged by increasingly sophisticated 
competitors. In my written testimony, I provided a concrete 
example, pointing out that the longstanding U.S. global 
leadership in large-science user facilities such as those 
managed by the Office of Basic Energy Sciences is being 
challenged as a result of major investments by countries in 
Europe.
    In my testimony, I described how the Basic Energy Sciences 
Advisory Committee provides advice to the Office of Science and 
the Office of Basic Energy Sciences. I have provided the 
Committee with copies of reports that have resulted from three 
recent studies. Each report has specific findings and makes 
specific recommendations. I would like to take this opportunity 
to applaud the leadership of the Office of Science and the 
Office of Basic Energy Sciences for acting rapidly and 
effectively to implement the recommendations that resulted from 
these studies.
    Since I was asked in my invitation letter to do so, I would 
like to conclude with a few remarks regarding the draft 
language for the EINSTEIN Act. I did provide a few observations 
in my written testimony. I would like to make two additional 
observations at this time.
    First, there are several examples in the draft legislation 
where specific areas of science are called out for attention, 
prioritizing them above other activities, and yet other 
important areas are not mentioned. One example is in the 
language associated with the Office of Biological and 
Environmental Research, which is given a broad charge ``to 
carry out a program of research, development and demonstration 
in areas of biological system science and climate and 
environmental science.'' Yet only biological systems and 
genomic science and low-does radiation research are addressed 
in detail in the draft legislation. Based on my own expertise, 
I would suggest that areas such as the development of a 
complete molecular-level understanding of the chemistry that 
underlies environmental pollution such as smog production and 
climate change should receive an equal emphasis from this 
office, given the importance to energy technology in the United 
States.
    I would also like to reiterate my concerns about the U.S. 
innovation deficit. I am concerned that the slight increase in 
funding associated with the draft legislative language I was 
provided will not be sufficient to allow the United States to 
recapture our leadership role in many areas of energy science. 
Let me assure you that I and my colleagues in the U.S. science 
community recognize the complex and serious budget issues 
facing our country. However, I am convinced that strategic 
investments in fundamental science research and education will 
be part of the solution, not of the problem.
    I want to thank you once again for your leadership and 
historical support of U.S. science and technology and also for 
the opportunity to be here today. Thank you very much.
    [The prepared statement of Dr. Hemminger follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Lummis. Thank you, panel, and now the Members 
will begin asking the questions, and the Chair yields herself 
five minutes to begin the questioning.
    And of course, I am going to start with something that is 
near and dear to my heart. As a graduate of the University of 
Wyoming and later someone who was involved in state government 
in Wyoming, I was on something called the EPSCoR Coordinating 
Committee, the Experimental Program to Stimulate Competitive 
Research, which is a DOE program in part, Office of Science, 
and it provides limited funding to states that don't receive 
substantial funding for their universities. Wyoming is an 
EPSCoR state, as I mentioned, so I was on the panel that got to 
vet and approve proposed EPSCoR projects and advance them to 
DOE and to the National Science Foundation for funding 
recommendations.
    DOE has proposed scaling back funding to the states, so my 
first question is for you, Dr. Dehmer. Many of the EPSCoR 
states are leading states in energy exploration and energy 
production, and that is certainly true of my State of Wyoming 
because of their limited funding and in spite of our massive 
contributions to the Nation's energy security. What is your 
view on the role of the EPSCoR program and how can energy-
producing states become more competitive in receiving funding 
through the Office of Science?
    Dr. Dehmer. Thank you very much for the question. As it 
turns out, I know quite a lot about EPSCoR. When I came to the 
Department of Energy in 1995 to lead BES, Basic Energy 
Sciences, the EPSCoR program had sort of accidentally had a 
lapse in funding. It was not funded out of my office. My 
division directors at the time were so committed to EPSCoR that 
we took over the EPSCoR program and we funded it out of our 
base program because of that commitment. So I have known the 
EPSCoR program for a very long time. It does outstanding work. 
We are very committed to that program. We work in partnership 
with all the other offices in the Office of Science and offices 
elsewhere to see if we can find partnering funds to increase 
the funding that goes to EPSCoR states. We try very innovative 
funding mechanisms to see if we can get individual 
investigators at EPSCoR states to become part of the program. 
We have worked very hard. The program has a checkered history 
of funding in the Congress, ups and downs, but we are committed 
to keeping that stable and to increase it at roughly the same 
rate that the other base programs in the Basic Energy Sciences 
increase.
    Chairwoman Lummis. U.S. Senator Conrad Burns from Montana 
was very much instrumental in founding the EPSCoR program and 
was its main champion, so when he was no longer in the U.S. 
Senate, I think that it dropped as a priority with some 
Senators, which may have contributed to the fits and starts in 
terms of funding. So we miss him as a leader in the EPSCoR at 
least and Congress, and I appreciate your response to the 
question.
    Dr. Simon, what opportunities exist to have DOE and 
specifically its site offices reduce day-to-day micromanagement 
of lab operations? And what would the resulting impact be on 
the labs?
    Dr. Simon. I think we are facing an overall trend of 
increasing oversight by DOE in many different aspects of our 
operations. I think in terms of interacting with our sponsors 
in headquarters with respect to science, the interactions are 
very good, but when it comes to issues such as EH&S or other 
operational opportunities, I think the laboratories would be in 
a better position if they would have more autonomy, less 
oversight, and I can mention as an example what I put in my 
written testimony, the topic of DOE's self-management of 
Environment Health and Safety. We are just like any other 
large-scale industrial enterprise and so we could have been 
easily provided oversight by OSHA yet DOE has its own sets of 
rules and we have to comply to these rules. These rules are 
sometimes very restrictive and very burdensome. I have a longer 
description of that issue that I am willing to supplement in 
written testimony.
    Chairwoman Lummis. A follow-up question then. If day-to-day 
oversight of lab operations is reduced, how can the national 
labs be held accountable for their stewardship of American 
taxpayer-supported investments, so you have flexibility, but we 
have accountability.
    Dr. Simon. Yes. The national labs are operated by companies 
or universities that have a contract to operate the national 
lab. The contract has requirements, and these requirements can 
be enforced and oversight provided through annual reporting 
mechanisms, through reports back to the sponsors, and can be 
also reviewed on an ongoing basis. That is different from 
describing on a daily basis on how particular instances of our 
operation need to be carried out in terms of what level of 
inspections need to be done, what level of support needs to be 
put into a particular operation. So I think the outcome-
oriented management is important as opposed to theoretical 
operational management.
    Chairwoman Lummis. Thank you, Dr. Simon.
    I gave myself a very generous fiv minutes, and will do the 
same for our Ranking Member. I recognize the gentleman from 
California.
    Mr. Swalwell. Thank you, Chairman Lummis.
    The research community often cites sustained growth and 
predictable funding as being among their top priorities. Not 
surprisingly, private industry cites predictability as one of 
its top priorities, and in necessity, if we really want the 
United States to continue to be a world leader in technology 
and innovation.
    Dr. Hemminger's testimony specifically refers to the 
innovation deficit that the United States is experiencing, and 
as I discussed in my opening statement, while I appreciate the 
majority's draft and its aims to improve the authorization of 
several important programs and activities carried out by the 
Office of Science, I have concerns about the draft's funding 
profile. It supports budget levels that are below research 
inflation rates so they are effectively cuts, and nine percent 
below the bipartisan Senate Appropriations Mark for the Office 
of Science. I am also concerned that the funding profile in 
this draft runs for only two years rather than a much longer 
time. I would prefer something like five years to give more 
certainty to the laboratories and those partners in the Office 
of Science.
    Dr. Hemminger, do you think that a short-term two-year 
reauthorization that cuts the Office's budget, provides the 
certainty and stability that the research community needs, and 
how does this help to increase the innovation deficit?
    Dr. Hemminger. Thank you very much for that question. You 
know, I think that it is widely recognized that the predominant 
programs that are run by the Office of Science and particular 
the Office of Basic Energy Sciences are long--are addressing 
long-term questions and long-term issues. These are not science 
questions that one can expect answers to in very short periods 
of time, and I think that the only way that a short-term 
reauthorization works is with the expectation that the U.S. 
government isn't going to go out of business and fall off a 
cliff and so on. So, I think it certainly would be advantageous 
to have a longer reauthorization bill, and I think this is 
particularly a problem or an issue with respect to the large 
science facilities. In my written testimony, I pointed out the 
issue of the international competition with respect to our 
global leadership for X-ray light sources and other facilities, 
and these are really major long-term projects that require 
stability in terms of funding and authorization. I would 
encourage the Committee to support that.
    Mr. Swalwell. Thank you, Dr. Hemminger.
    Dr. Simon, what are your thoughts on funding and length of 
funding, or length of authorization?
    Dr. Simon. As I said in my opening statement, the national 
laboratories have long-term projects in research and have 
large-scale facilities that require a predictable, continued 
operation. It is very difficult in both instances to have a 
very highly variable budget that changes from year to year and 
that is not predictable. With respect to large facilities, the 
issue is that ongoing upgrades, plans may need to be postponed 
at an increased cost to the taxpayer later on. With respect to 
research projects, the high variability in funding makes it 
very difficult to plan personnel, and we are talking here about 
highly critical talent that if it is junior researchers, if 
postdocs see that there is uncertainty about funding, about the 
longevity of a project, they will go elsewhere and leave the 
national lab and weaken our innovation ecosystem. Thank you.
    Mr. Swalwell. And Dr. Simon, could you talk a little bit 
about some of the other Federal agencies and private-sector 
users that you have at Lawrence Berkeley? We have heard that 
DOE labs are using--are having other agencies like NIH, NSF and 
NASA use their laboratories, and I know from touring LBL that 
there are private-sector partnerships as well. Can you talk 
about who those users are and how they are benefiting the 
technology transfer to the private market?
    Dr. Simon. Thank you for the question. So let me first talk 
about other Federal agencies. The national user facilities that 
are operated by the Office of Science are available to all 
researchers, that is, university, national labs and industry 
researchers, so we have, for example, at the Advanced Light 
Source in Berkeley a large number of researchers funded by NIH. 
These are biologists who are interested in determining the 
structures of large biomolecules of proteins. There are 
significant examples of major progress that has been obtained 
using the DOE facilities. For example, a research project that 
was just completed a couple months ago is looking at the 
structure of the influence of the flu virus. As you know, the 
viruses are mutating rapidly and there is still a quest for 
finding a common vaccine that would address all these flu 
viruses. So in order to understand this, one has to look at the 
structure. There was a major project that was NIH funded that 
used the ALS to identify the structure of many of these 
viruses.
    With respect to NASA, I could mention an example of a 
collaboration between the Department of Energy's Office of High 
Energy Physics, with NASA to collaborate on an astrophysics 
project called the Planck project, which is an exploration of 
the cosmic microwave of background radiation where both 
agencies have worked together, and the supercomputing center, 
NERSC, in Berkeley is actually the data repository for the 
Planck data.
    Mr. Swalwell. Thank you. And Dr. Simon, I have gone over my 
time.
    Dr. Simon. I haven't gotten to industry but I will be happy 
to----
    Mr. Swalwell. Yes, and hopefully we can get back to that. 
He is so passionate, he has so much to talk about, Chair. Thank 
you.
    Chairwoman Lummis. And we are delighted for that, so we are 
going to have a generous clock today.
    The Chair now recognizes Mr. Hultgren, the gentleman from 
Illinois.
    Mr. Hultgren. Thank you, Chairman Lummis.
    Thank you all for being here, and I really do appreciate 
the work that you are doing. I hope you know from us, certainly 
from me, my passion for the work of the Office of Science and 
how key the work of the Office of Science is to determine our 
competitiveness on the world stage, and just absolutely 
convinced that we must right now be committed to maintaining 
our leadership in basic scientific research so that we can 
continue our leadership on the world stage as far as being an 
innovative nation going forward. I also have the great 
privilege of representing Fermilab, many of the brilliant 
scientists at Fermilab, Department of Energy employees at 
Fermilab, as well as many scientists over at Argonne. So I see 
firsthand the incredible impact that our laboratories have on 
the communities where they are located but much larger than 
that, the impact that they have on our university systems. I 
travel to all of my universities around Illinois and I am just 
amazed at the incredible opportunity that our students have 
working with our national laboratories to do truly 
groundbreaking research, and what a great opportunity. But then 
even beyond that, to see something like Fermilab where I think 
the numbers I saw was 39,000 K-12 graders are impacted every 
single year by Fermilab through programs, through work with 
teachers, by scientists going into the schools, incredible 
impact, and I am absolutely convinced that we must continue our 
commitment to basic scientific research at our national 
laboratories if we are going to be a great nation going forward 
with great opportunities for our kids and our grandkids to be 
able to learn and study here but also apply that knowledge for 
new discovery here in America, so thank you.
    A couple questions I had. Dr. Dehmer, I wanted to ask you 
your thoughts on the long-term future of the Department's High 
Energy Physics program as it continues to regain its leadership 
role on the international level. There is no question that the 
United States was essential in experiments at CERN with 
programs like the LHC and Atlas. But I wondered what is next 
and what your thoughts are on the Long Base Neutrino Experiment 
and our unique underground research space in South Dakota and 
Minnesota? What does America have to lose if we do not begin to 
act on this, and how can we leverage international funding to 
realize the potential discoveries that it has to bring?
    Dr. Dehmer. Well, thank you for the question. I spent 23 
years at Argonne National Laboratory just down the road from 
Fermilab. Fermilab is one of our most important laboratories. 
As you well know, it is transitioning now from work at the 
energy frontier to work in the so-called intensity frontier. 
The accelerator and detector expertise at Fermilab is going to 
be critical to make the United States world leading in the 
intensity frontier. We need very intense beams. We need very 
high-precision detectors in order to do that. Fermilab will be 
at the forefront of doing that. Right now, as you probably well 
know, there was a very large meeting called the Snowmass 
Meeting in Minnesota that went on for a couple of weeks with 
about 500, 700 participants. That is going to be followed very 
closely now by an advisory committee study. Our expectation is 
that that study will be done in the spring, and that is going 
to inform not only the future of high-energy physics but we 
hope that it will also endorse a very vibrant future for 
Fermilab. As you well know, there is a new laboratory director 
at Fermilab, Nigel Lockyer, who is extremely talented, very 
aggressive, and so we are looking forward to a very good future 
for high-energy physics and the laboratory.
    Mr. Hultgren. Good, and I hope there is a specific 
commitment with the Long Base Neutrino Experiment. I think we 
are in a unique position there on the forefront. If we let that 
slip away, there are certainly other nations that are willing 
to step in, like has happened in other areas where we haven't 
followed through on opportunities that we have had, and we have 
seen focus come away from America and go over to Europe or 
other places. I really think it is so important that we don't 
let this slip away.
    Dr. Dehmer and Dr. Simon, if I could get your thoughts? 
Earlier this year, DOE prepared a roadmap to develop exascale 
computing systems that I had the opportunity to sit down and 
discuss with Secretary Moniz on. I wondered if you could 
summarize the key findings and recommendations and also let the 
Committee know what ways DOE and non-DOE stakeholders can 
collaborate and utilize this capability?
    Dr. Simon. Thank you for the question about exascale. Let 
me state first that I believe moving towards exascale is an 
incredibly important opportunity for the Department of Energy 
Office of Science but not just the Office of Science, other 
parts of DOE, NNSA and the U.S. research community in general 
to maintain leadership in high-performance computing. It is the 
path towards exascale, and not exascale in and of itself that 
is important. The reason why that is, is because I think there 
are fundamental changes that are currently happening in 
computer technology. You all are aware of technology shrinking, 
become more available at the iPhone level. These type of 
changes fundamentally alter the landscape of computing. What 
exascale really is about is envisioning how the computer 
landscape will look in 10 or 15 years. A good analogy is the 
early 1990s when there was a High Performance Computing 
Initiative, HPCC, that was a very well-coordinated, well-funded 
initiative with national coordination which allowed all the 
agencies that have interest in computing to work together. I 
still look back to this time and say this should be a model for 
exascale. We should look at this as a challenge that is not 
just for the Department of Energy but for other agencies as 
well because whoever will control this technology in the near 
term will have a long-term economic advantage in the computing 
world.
    Mr. Hultgren. I agree with you.
    My time is expired. I do have some more questions, if it 
would be all right if we can follow up in writing and get your 
response. Dr. Dehmer, we would love to hear your thoughts on 
the exascale computing work that we see as important but also 
some other things. With that, I yield back. Chairman, thank you 
so much for your generosity.
    Chairwoman Lummis. And thank you for your expertise and 
enthusiasm for this topic. We are always impressed with your 
presence and your commitment to this subject, so Mr. Hultgren, 
my compliments.
    I will now recognize the gentleman from Illinois, Mr. 
Lipinski. He and I came up on the elevator today and we were 
both concerned that we were enthusiastically rushing to this 
Committee, so the Chair recognizes the gentleman from Illinois.
    Mr. Lipinski. Thank you. There are so many things to talk 
about here. Let me quickly get to it, and some things I might 
leave for follow-up questions for the record.
    I first want to say that I am glad to see that Congressman 
Hultgren's bill, which I cosponsored, on high-performance 
computing has been incorporated into the discussion draft. I 
know it is vitally important that we keep up investments in 
high-performance computing that push the boundaries of what is 
possible and keep us on a path towards exascale computing as we 
were just talking about. I have seen firsthand how impressive 
these high-performance computing projects are by visiting the 
Mira supercomputer at Argonne, which is in my district, so it 
is great to have Argonne there. It is a great example of what 
we can do and what we should be doing more of. I may come back 
or maybe for the record ask Dr. Dehmer about the ASCR program, 
but I just wanted to move on to talk about tech transfer.
    It has been one of my top priorities since I have been in 
Congress, making it easier to get these research findings that 
then become new technologies, new inventions, get them out of 
the lab and into the market. Our national labs have been real 
leaders in this space as many of them have taken money that 
they receive from licensing agreements and put it towards funds 
that help accelerate the commercialization of new technologies. 
Still, I think more can and should be done, both at the labs 
and at DOE.
    I want to ask Dr. Dehmer, could you tell--can you talk 
about how the Office of Science approaches technology transfer 
and how you look to partner with the labs primarily funded by 
the Office of Science in these activities?
    Dr. Dehmer. Well, I will tell you briefly what the Office 
of Science is doing in our SBIR program. We have a new part of 
that program called TTO, Technology Transfer Opportunities, and 
it allows applicants to the SBIR program to use technologies or 
R&D results from our laboratories in their work and the SBIR 
grants, and having looked just recently a couple of days ago at 
the latest funding opportunity announcement from the SBIR 
program, there are dozens of technology transfer opportunities 
noted in that for applicants. So we are aggressively working 
with our laboratories and also our universities but mostly the 
laboratories to take the results of their R&D and move them to 
small businesses.
    I also want to comment on what the Secretary is doing, 
Secretary Moniz. He is very interested in reducing barriers to 
the laboratories working with small business and industry, and 
his lab policy council, which was just established and had its 
first meeting last week, was devoted about 50 percent of the 
time to talking with lab directors and others about how we can 
reduce barriers and make it easier to do exactly what you are 
saying.
    Mr. Lipinski. Very good. It is great to hear those things, 
and I think there is--I am sure there is more that we can do. 
One thing I am interested in is having DOE participate in the 
Innovation Corps program, and that is something I would like to 
continue to talk about.
    One other thing I wanted to get to right now is flexibility 
for the labs, and I think there is a need to have more 
flexibility. I am glad to see that the language in the bill 
expands the use of ACT agreements that can be entered into 
between labs and small businesses without an extra layer of 
review from the DOE. It is a good start, and I applaud DOE for 
working with the labs on the pilot program for these 
agreements. But I want to ask Dr. Dehmer if DOE is looking at 
other areas from tech transfer to facilities construction where 
perhaps the labs could be given a bit more leeway in what they 
are doing for the more minor decisions. I understand the need 
to follow DOE's lead on larger strategic investments, it is 
always going to be there, but in terms of giving a little more 
flexibility to the labs.
    Dr. Dehmer. Yes. That is one of the things that has 
actually concerned me for a long time. Sometimes it is called 
atomization of budgets where budgets are put out in very small 
amounts. One of the things that we have done in the Office of 
Science is, we have created funding constructs that put money 
to the laboratories, in fact, even to the universities, in much 
larger amounts, and having a larger amount of funding to work 
with gives the labs that flexibility. And examples are the 
Nanoscale Science Research Centers, five of them, that we put 
in place about ten years ago now, the first one not quite ten 
years ago. That is a $25 million budget item, and the labs have 
flexibility to use that subject to annual or biannual or 
triannual review. The Energy Frontier Research Centers, the 
Bioenergy Research Centers and the Energy Innovation Hubs are 
all constructs that put funding to the performers, in many 
cases largely to the laboratories, in chunks of money that give 
the lab just this kind of flexibility and discretion in 
spending that you are talking about. I think that is something 
that I started almost ten years ago when I was in Basic Energy 
Sciences and I am pleased to see is continuing. I also don't 
like to see too many constraints put on laboratories with too 
small amounts of money.
    Mr. Lipinski. Thank you very much. And just very briefly, I 
just want to bring everyone's focus back to two things that Dr. 
Simon said. One is the great cooperation we have in this 
country--universities, the national labs, industry. We need to 
not only appreciate that, we need to do what we can at the 
Federal level to help to continue and to help grow those, and I 
am glad Dr. Simon pointed those things out.
    And also the last thing that you had said in your 
testimony, Dr. Simon, about the future and what the future 
looks like for a young scientist today, and I think we all need 
to focus on that and do what we can to make sure that it 
continues--we continue to be the place that young scientists 
want to come to and to stay. Thank you.
    Chairwoman Lummis. I thank the gentleman from Illinois, and 
the Chair will now recognize the gentleman from California, Mr. 
Takano. You know, our California Members make that long trek 
every week that our witnesses from California made today, and 
so they are grateful for your willingness to come this far. I 
now recognize Mr. Takano.
    Mr. Takano. Thank you. I know our Chair travels from the 
great, wonderful State of Wyoming, a beautiful state. Thank 
you, Madam Chair.
    I am fortunate to represent UC Riverside, a top-notch 
research university, sister school of an empire that includes 
both Berkeley and Irvine. I want to get straight to the 
questions.
    Dr. Dehmer, in the majority's draft authorization of the 
Office of Science, the Biological and Environmental Research 
Program is directed to ``Prioritize fundamental research on 
biological systems, genomic science over the rest of the 
portfolio.'' This is clearly a way to implicitly say take money 
from climate and environmental research. Do you support this 
language in the discussion draft?
    Dr. Dehmer. No, we do not support that. The climate and 
environmental sciences part of Biological and Environmental 
Research is extremely important, and we do not want to 
disadvantage that in the way that the language in the majority 
bill has been interpreted.
    Mr. Takano. Thank you. Dr. Simon?
    Dr. Simon. I concur with this answer, and I would just like 
to add that the environmental and climate research in the 
Office of Biologic Environmental Research is an important, 
integral part of the DOE mission. We shouldn't really think of, 
say, climate as a standalone enterprise but think about how it 
interacts with other parts of the program. For example, climate 
science allows us to predict rainfall, precipitation in the 
West. That ties into the availability of water. The 
availability of water again has energy impacts in terms of how 
hydropower will be generated, how water will be used in energy 
technologies. So the Department of Energy is uniquely situated 
to explore not just climate itself but the interaction of 
climate with the ecosystem, and in a situation where this 
fundamental research can lead to important insights for our 
future.
    Mr. Takano. Thank you.
    Dr. Hemminger, I believe you sort of stated your opinion in 
your opening statement. Would you care to add anything?
    Dr. Hemminger. No, I just want to say that as I said in my 
opening statement, I think it is a mistake to try to 
legislatively prioritize topics within the Office when 
important topics such as the environmental sciences at sort of 
a really molecular level of understanding are so important.
    Mr. Takano. These sciences are so important to my district 
and southern California in general where there is actually 
seven or eight Congressional districts the size of several 
states that suffer from air quality issues, and our 
understanding of the way in which environmental--how the 
environment interacts with climate is very important to us.
    Dr. Simon, you mentioned the fact that you became an 
American citizen, that you saw this country as a place for you 
and a future for you in science, and you said you could no 
longer really say that to a graduate student today or--I am 
assuming that is what you were thinking. Can you explain a 
little bit more what you were talking about?
    Dr. Simon. Thank you for the question. I think if I look at 
the steady state today and if I look at what the research 
facilities are, what the infrastructure is, what our 
educational institutions are, what our opportunities are to 
work with industry, how industry is working with us, America is 
still very clearly number one. However, what I am concerned 
about is the trend, and just to give a very recent example, if 
we have issues such as sequestration, which means that we have 
to look at future staffing, if we look at the partial shutdown 
where uncertainty goes through the system, what we are 
signaling to the next generation of scientists is, is that the 
future of science in the country is no longer as certain as it 
was. We are sending a very strong signal saying yes, there is a 
great infrastructure here, there is the opportunity here to 
work with top minds in the field but we cannot guarantee you 
that 30 years from now that situation will be the same because 
if we are on a path of continued reduction in funding, 
continued uncertainty about the longevity of some of the 
research projects, somebody who has to stake a 30-year career 
in front of them will have to very carefully look where he or 
she will go.
    Mr. Takano. So many of our top, bright graduate students 
might place a bet on other countries that seem to have a 
different trajectory.
    Dr. Simon. Yes. I think we are at an inflection point where 
it could very well be that some of our brightest researchers 
will look elsewhere, in particular looking at Europe. From my 
personal experience, I would say particularly in my field, to 
put this in historical context, in 1980 there was no doubt 
about the differential between what was happening in America 
and what was happening in Europe. Today I would say Europe has 
pulled up and is in many areas even and in some areas even 
ahead of us.
    Mr. Takano. Thank you so much for your testimony. I yield 
back.
    Chairwoman Lummis. I thank the gentleman, and we will have 
an opportunity for those of us who are here to ask a second 
round of questions, and we are going to limit the time, so the 
Chair recognizes the gentleman from Illinois, Mr. Hultgren, who 
has a bill on the Floor, and we are delighted you were able to 
stay this long. Thank you.
    Mr. Hultgren. Thanks, Chairman.
    Dr. Dehmer, I will follow up with the question I had asked 
Dr. Simon just in regards to exascale computing, if there is 
any shortly key findings, recommendations or if there are ways 
that DOE and non-DOE stakeholders can collaborate to utilize 
this capability?
    Dr. Dehmer. Yes. Let me just say what is happening inside 
DOE. Secretary Moniz--you said you spoke with him--is very 
strongly supportive of this, and he is having NNSA and the 
Office of Science work collaboratively and collaboratively with 
the community to make sure that the exascale program, and as 
Dr. Simon said, it is not an endpoint, it is a journey, a ten-
year journey to a computer this large, is successful. He has 
also asked his advisory board, the Secretary of Energy Advisory 
Board, to listen to the presentations from the Department and 
from others and to provide him with advice on the path forward. 
This is one of the very highest priorities in the Department of 
Energy right now.
    Mr. Hultgren. Okay. Thank you.
    Dr. Dehmer, different subject. In your testimony, you 
stated that HEP is the steward of accelerator R&D technology 
for DOE. I wonder if you can just discuss the interagency 
collaboration on this technology, where it lies in the draft 
legislation and the benefits accelerator research has for 
America.
    Dr. Dehmer. The Office of High Energy Physics has been very 
aggressive in the last couple of years reaching out to others--
NIH, the medical community, all communities that use 
accelerators--to find out how we can help them. As you know, 
the State of Illinois built IARC at Fermilab, and that is 
another way that we are going to reach out to non-traditional 
users of accelerators to see how we in the High Energy Physics 
program through the laboratories can help others who need 
accelerator technology but don't have the expertise to do it 
themselves.
    Mr. Hultgren. Thank you. Last question I will ask, Dr. 
Dehmer. There is a couple different parts to it. The United 
States is currently a partner in ITER, a more than $20 billion 
international project to demonstrate the concept of fusion 
energy. Unfortunately, this project has been plagued by delays, 
increased cost estimates and poor project management, and I 
understand more bad news may be on the way in terms of our 
European partners' ability to meet their project obligations. 
Dr. Dehmer, do you have full confidence in the construction and 
financing of ITER within a reasonable time frame and cost 
structure?
    Dr. Dehmer. Well, let me answer that in a slightly 
different way. As you know, in the 2014 budget which is now 
before Congress, the Department of Energy capped its 
contribution to ITER at $225 million a year with a $2.4 billion 
cap to get it to first plasma. We are awaiting the results of a 
couple of reviews now. One of them is an international review 
of the management of the project at the International 
Organization, the IO, and the other is an Office of Project 
Assessment, sometimes called a Lehman review, and based on the 
results of those two reviews, we will take another look at how 
we are approaching ITER.
    Mr. Hultgren. You kind of touched on this, but I wonder if 
you could maybe go a little bit further and just describe any 
upcoming project milestones and how the Department will 
evaluate its future participation in contributing to ITER?
    Dr. Dehmer. Well, we are responsible--the U.S. part of 
ITER, the U.S. project office, USIPO, is responsible for 
certain deliverables, and we review progress toward meeting 
those deliverables on a regular basis through the Office of 
Project Assessment, and that tells us about how we are doing. 
The so-called management assessment, which won't be released 
until late November, will tell us a little bit about how the 
ITER project office in France is doing, and again, based on the 
results of those two reviews, we will take a look at what our 
position is going to be.
    Mr. Hultgren. What were the dates on that again?
    Dr. Dehmer. Late November is the council meeting, and the 
management assessment will be briefed to the ITER council at 
that point.
    Mr. Hultgren. Okay. I think for us, and you understand 
this, our responsibility is certainly to see the Department do 
well and be in the forefront of some important work but also 
making sure that we are being responsible for the taxpayer 
dollars, so just kind of in conclusion, I just ask, will you 
assure the Committee that you will continue to be vigilant in 
protecting taxpayer dollars from waste and cost overruns 
specifically associated with ITER to the point of considering 
U.S. withdrawal from the project if necessary?
    Dr. Dehmer. Yes, we will do that.
    Mr. Hultgren. Thank you. Again, thank you all for being 
here, and thank you, Chairman, for allowing me to jump ahead a 
little bit in the line here. Thank you.
    Chairwoman Lummis. I thank the gentleman.
    Mr. Swalwell.
    Mr. Swalwell. Thank you, Chairman Lummis.
    Dr. Simon, could you complete your remarks from earlier 
about private industry partners that your laboratory has been 
working with and how you see their work transferring out to the 
private sector and creating jobs, helping the economy, making 
us more energy independent?
    Dr. Simon. Thank you for the question. I would like to 
follow up on this. Yes, there are of course several individual 
collaborations of our laboratory with private industry. There 
are the standard ways of transferring technology through 
licensing and intellectual property rights agreements. I could 
mention a couple of exciting examples. Dr. Dehmer mentioned 
previously the Nanoscience Centers. We now have ten years later 
the first examples of technology coming out of Nanoscience 
Centers that is actually used in industry in terms of small 
company startups but using very innovative ideas to build new 
products. I can mention a small company that has just started, 
Heliotrope, that is using a nanocoating on windows that makes 
windows electrochromic so it can switch from on and off. In 
winter you make windows bright so sun can go in and heat stays 
inside and in the summer you switch in reverse, and this is by 
the flip of a switch. Of course, this is technology that is 
proven in the lab. It will take years to make it a real 
product. But this is the path that we have from basic research 
at the lab to an actual innovation that could change maybe in 
ten years or so how we build houses.
    More fundamentally, I think I would mention two other 
things. One project, one area is so-called work for others. The 
labs engage in projects that are funded by industry. It is a 
very important element because it allows industry to work 
directly with us, sponsor work at the lab and benefit from the 
investment that the Department of Energy has made. It would be 
very desirable if these work for others projects could be made 
a bit easier to implement and maybe the labs would have 
authority to in particular sponsor small work for otherd 
projects quickly without DOE oversight. That is important 
because often we work with small companies that cannot wait for 
eight or nine months to get approval. Those companies need 
commitments from VCs or have other constraints. So speed is of 
the essence.
    A third area that I would like to mention is the use of 
national user facilities. These are open to industry. Industry 
has worked with the national user facilities. As an example, 
the Advanced Light Source has a very long-term agreement with 
Sematech, exploring extreme ultraviolet technology for future 
generations of chips. Large companies and consortia like 
Sematech know how to do this. I think what we need to do is 
find a way of getting small and medium sized enterprises 
access, better access to our facilities, again, reducing 
paperwork, making it easy and efficient and possibly even 
providing support for small and medium sized companies to 
access the facilities.
    Mr. Swalwell. Great. Thank you, Dr. Simon, and I yield 
back.
    Chairwoman Lummis. I thank the gentleman, and I have kind 
of a follow-up question about the EINSTEIN America draft bill 
as it relates to signature authority on agreements for non-
federal entities. The discussion draft delegates signature 
authority on agreements under 500,000. Is there a threshold 
which may provide for added flexibility to the national labs 
while preserving the Department's oversight responsibilities 
for larger projects? And I open this question to any of our 
panelists.
    Dr. Dehmer. Yes, we noted that provision, and that is 
something that actually I think we may have to talk with 
general counsel about because that adds to the contract of the 
laboratory, and I am not sure what role DOE can relinquish in 
doing something like that. I understand the sense of this, that 
it is to give the labs more flexibility and more freedom to 
work quickly. You know, as I mentioned earlier, one of my goals 
is to give the labs more flexibility in research dollars by 
putting out dollars in larger amounts and letting the M&O 
contractor manage that. I think the same philosophy holds for 
work for others in technology transfer, and I think there are 
mechanisms that the Secretary would like to put in place to do 
that. I am not sure that this is one of them but we will 
certainly explore it.
    Chairwoman Lummis. Dr. Simon, is 500,000 a good threshold 
from your perspective?
    Dr. Simon. It is certainly a good threshold but I think a 
million would be better.
    Chairwoman Lummis. Okay. And I hear you. Thank you for your 
candor.
    Dr. Hemminger, any thoughts on this?
    Dr. Hemminger. Yeah, I just agree with Dr. Simon. You know, 
coming from the University of California, which is part of the 
contract management for several of the labs, I think this would 
be an important step if it is legal, and----
    Chairwoman Lummis. Well, we make it legal.
    Dr. Hemminger. Yeah. Very good. You know, I think that 
moving in this direction would be positive.
    Chairwoman Lummis. Let me ask just as my final question, is 
there anything that you would like to share with us that we 
have not asked? So I leave the option to say something that is 
a burning answer that you wish you could leave us today with.
    Dr. Dehmer. Well, I would like to add something to the 
discussion that we have had already today on the funding levels 
in the EINSTEIN Act. One of the things that I noted over the 
weekend when I was poring over numbers was that the 
authorization in the 2010 COMPETES Act for Fiscal Year 2013 was 
a hair over $6 billion for the Office of Science, and when we 
see something like that, we tend to plan toward something of 
that order of magnitude. The actual appropriation was $4.6 
billion, so we are significantly below what the authorization 
was, and it is very hard to plan. When I was the director of 
Basic Energy Sciences for all those years, for 12 years, I 
carried with me a single sheet of paper and that single sheet 
of paper was a ten-year projection for what the Basic Energy 
Sciences program would do in construction and in research. It 
was a single Excel spreadsheet. And those years, we didn't have 
a huge amount of funding but we knew what was coming or we 
could plan what was coming. And today there would be no way 
that you could carry a spreadsheet like that because things 
change so much.
    Chairwoman Lummis. Dr. Simon?
    Dr. Simon. Thank you for the opportunity to comment freely. 
I of course support very much what Dr. Dehmer said. I would 
like to draw your attention to another topic that is very, very 
important for the future. Many of our national laboratories 
were created and formed in the time after the second World War, 
and are really still in the legacy of the Atomic Age as far as 
their physical infrastructure is concerned. We have, for 
example, in Berkeley Lab, the average age of buildings is more 
than 50 years. We are an 80-year-old lab, so you can really see 
from this that there was a big building boom in the 1950s and 
1960s and we are still in buildings that are by now outdated 
and in many cases no longer safe. There is a program in the 
Office of Science called the Science Lab Infrastructure, which 
allows for gradual renovation of buildings, upgrades and also 
doing important things in California such as earthquake safety. 
We are very supportive of this program because it is the best 
way of accomplishing a gradual upgrade of very old and aging 
facilities.
    In addition to that, of course we understand that we are in 
a time of very constrained budgets. It would be very helpful if 
we could find innovative and quick ways to use other sources of 
funding. For example, the laboratories would be very interested 
to use third-party financing for buildings and we would like to 
work with the Office of Science and DOE to find quick ways to 
accomplish this within the existing framework. So, 
infrastructure is as important as people and scientific 
facilities.
    Chairwoman Lummis. Dr. Hemminger?
    Dr. Hemminger. Thank you very much for the opportunity to 
make some general comments. I would like to come back to the 
concept of the importance of the Office of Science with respect 
to dealing with what I call the innovation deficit. I think 
this is a really critical issue for the United States, and we 
have not yet approached, I think, the problem that led, for 
example, to the brain drain out of Europe after World War II, 
but I think we have--we are seeing a situation which could in 
fact lead to that, as Dr. Simon has mentioned.
    One of the things that I think has not yet been pointed out 
is the tremendous and unique capability or asset that the 
United States has with respect to the staff at the national 
labs, not just the staff but the users at the national lab 
facilities. The light sources, for example, that the Office of 
Basic Energy Sciences manages have on the order of 12,000 users 
annually, and this is really a unique, worldwide asset that 
needs to--that the United States has that we should continue to 
support, and I guess I would like to finish just by thanking 
the Committee again for its strong support for science over the 
years, and for the opportunity to be here today.
    Chairwoman Lummis. I thank the gentleman and the panel, and 
certainly you passed our test, Dr. Hemminger. We have those 
bells and whistles come on while you are speaking so we can 
test your ability to focus, and you passed our test swimmingly. 
So thank you very much.
    The Chair now recognizes the gentleman from California, Mr. 
Takano.
    Mr. Takano. Thank you, Madam Chair.
    Dr. Dehmer, as a former high school teacher, improving STEM 
and STEAM education is one of my top priorities. We must ensure 
we are preparing our students and teachers to succeed in the 
21st century. Overall, what will the role of the Department of 
Energy be in furthering STEM education, especially as it 
relates to meeting future energy workforce development needs?
    Dr. Dehmer. Yes, the major role that we play is the support 
of graduate students through our grants program. However, we 
also have a program called Workforce Development for Teachers 
and Scientists. I know this program well because I am actually 
the director of it, and in addition to the other things I do. 
That program places a thousand people a year at the labs for 
internships. It is undergraduate students, a new graduate 
program that will place graduate students for periods of three 
months for up to two years at the laboratories to do their 
work, and visiting faculty and students that they might bring 
with them. So through this program, the Department of Energy 
Office of Science hopes to get students and faculty engaged in 
laboratory research, seeing the laboratories as an excellent 
place to have a career or an excellent place to collaborate 
with staff at the laboratories.
    Like Dr. Simon, when I was getting out of graduate school, 
I really had no knowledge of what the laboratories were or what 
they did or what the workforce was like. I had a postdoc at 
Argonne National Laboratory. I thought it would be a couple of 
years. It turned out to be 23 years. And unless we bring people 
into the laboratories and let them understand what those 
laboratories do, I don't think that we will have as vibrant a 
workforce as we might have. So this is a very important program 
to us. STEM is very important to us.
    Mr. Takano. The Computational Science Graduate Fellowship 
program, which is a partnership between the DOE Office of 
Science and the DOE National Security Administration is widely 
considered to be a success in meeting the DOE's national 
laboratories' computational science workforce needs. Under the 
President's budget proposal, will this program still be 
administered by the NSF?
    Dr. Dehmer. We don't know what the implementation of the 
consolidation of the STEM programs is going to look like 
because that hasn't been fully explored. I agree with you that 
the Computational Sciences Graduate Fellowship program is one 
of outstanding fellowship programs that we have run for over 20 
years. It has reviewed outstandingly, and it is essentially the 
who's who of computational sciences have gone through that 
program. So that is one of our concerns in the consolidation.
    Mr. Takano. Great. Madam Chair, I have no further 
questions. I yield back.
    Chairwoman Lummis. I thank the gentleman. I thank all of 
our Members who attended this hearing today, and I particularly 
want to thank the witnesses for your valuable testimony. The 
members of the Committee may have additional questions for you. 
I know Mr. Hultgren had suggested he may follow up with some of 
you in writing. There may be other members of the Committee who 
will do so. The record will remain open for two weeks for 
additional comments and written questions from members, and 
with our gratitude for our fine panel today, for your 
attendance and for your thoughtful responses to our questions 
and our gratitude once again, this hearing is adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]















                               Appendix I

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by Dr. Pat Dehmer


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            Supporting material submitted for the record by
    Dr. Horst Simon, Deputy Director, Lawrence Berkeley National Lab


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
